                                          NATIONAL SCIENCE FOUNDATION
                                          OFFICE OF INSPECTOR GENERAL
                                            OFFICE OF INVESTIGATIONS

                                     CLOSEOUT MEMORANDUM

Case Number: A05070051                                                           Page 1of 1


        During our proactive review for plagiarism, we discovered copying in a proposal
        submitted to NSF by a PI and two co-PIs.1 We referred the allegation to the
        subjects' University. The University concluded one of the co-PIS was responsible for
        the copied text in the proposal. 2 The co-PI resigned from the University.

        We agreed with the University's conclusions and recommended NSF make a finding
        of research misconduct against the co-PI for plagiarism. NSF agreed and took the
        additional recommended action of requiring the subject to certify for 1year t h a t any
        proposals submitted by the subject contain no plagiarized, falsified, or fabricated


                                                                                                  1
        material.

        Accordingly, this case is closed. This memorandum, the Deputy Director's
        adjudication, and our Report of Investigation constitute the closeout for this case.




                (redacted).
            2   (redacted).



VSF OIG Form 2 (11/02)
                                  NATIONALSCIENCE FOUNDATION
                                      4201 .WILSON BOULEVARD
                                     ARLINGTON, VIRGINIA 22230




     OFFICE OF THE
    DEPUW DIRECTOR




CERTIFIED MAIL --RETURN RECEIPT REQUESTED




       Re: Notice of Research Misconduct Determination

Dear Dr.

       In 2004, you submitted a proposal to the National Science Foundation ("1VSF") entitled,
                                                                                   As
documented in the attached Investigative Report prepared by NSF's Office of Inspector General
("OIG"), this proposal contained plagiarized text.

Research Misconduct and Proposed Sanctions
        Under NSF's regulations, "research misconduct" is defined as "fabrication, falsification,
or plagiarism in proposing or performing research funded by NSF . . ." 4.5 CFR 9 689.1(a). NSF
defines "plagiarism" as "the appropriation of another person's ideas, processes, results or words
without giving appropriate credit." 45 CFR § 689,l(a)(3). A finding of research misconduct
requires that:

       (1) There be a significant departure from accepted practices of the relevant research
           community; and
       (2) The researchmisconduct be committed intentionally, or knowingly, or recklessly; and
       (3) The allegation be proven by a preponderance of evidence.

45 CFR § 689.2(c).

        Your proposal contains verbatim and paraphrased text from two source documents. By
submitting a proposal to NSF that copies the ideas or words of another without adequate
attribution, as described in the OIG Investigative Report, you misrepresented someone else's
work as your own. In addition, you failed to properly acknowledge or credit the authors of the
                                                                                                            '1


I
                                                                                                 Page 2
    source documents in your proposals. Your conduct unquestionably constitutes plagiarism. I
    therefore conclude that your actions meet the definition of "research misconduct" set forth in
    NSF's regulations.

             Pursuant to NSF regulations, the Foundation must also determine whether to,make a
    finding of misconduct based on a preponderance o f the evidence. 45 CFR $ 689.2(c). After
     reviewing the Investigative Report and the University Committee Report, NSF has determined
     that, based on a preponderance of the evidence, your plagiarism was committed knowingly and
     constituted a significant departure from accepted practices of the relevant research community. 1
     am, therefore, issuing a finding of research misconduct against you.

             NSF's regulations establish three categories of actions (Group I, 11,and ID)that can be
    taken in response to a finding of misconduct. 45 CFR §689.3(a). Group I actions include issuing
    a letter of reprimand; conditioning awards on prior approval of particular activities from NSF;
    requiring that an institution or individual obtain special prior approval of particular activities
    from NSF; and requiring that an institutional representative certify as to the accuracy of reports
    or certifications of compliance with particular requirements. 45 CFR §689.3(a)(l). Group I1
    actions include award suspension or restrictions on designated activities or expenditures;
    requiring special reviews of requests for funding; and requiring correction to the research record.
    45 CFR §689.3(a)(2). Group 111actions include suspension or termination of awards;
    prohibitions on participation as NSF reviewers, advisors or consultants; and debarment or
    suspension from participation in NSF programs. 45 CFR 5 689.3(a)(3).

            In determining the severity of the sanction to impose for research misconduct, I have
    considered the seriousness of the misconduct, our determination that it was committed
    knowingly, as well as our determination that it was an isolated incident. I have also considered
    the fact that your misconduct did not have a significant impact on the research record, your
    willingness to accept responsibility for your actions, and the contrition that you demonstrated
    during the course of the investigative process. I have also considered other relevant
    circumstances. 45 CFR 5 689.3 (b).

            In light of the foregoing, I am requiring that, from June 1,2007 through May 31,2008,
    you certify that any proposal you submit to NSF as a principal investigator or co-principal
    investigator does not contain any plagiarized, falsified, or fabricated material. Such certifications
    should be submitted in writing to the Office of Inspector General, 4201 Wilson Boulevard,
    Arlington, Virginia 22230.

    Procedures Governing Appeals
            Under NSF's regulations, you have 30 days after receipt of this letter to submit an appeal
    of this decision, in writing, to the Director of the Foundation. 45 CFR $689.1O(a). Any appeal
    should be addressed to the Director at the National Science Foundation, 4201 Wilson Boulevard,
    Arlington, Virginia 22230. If we do not receive your appeal within the 30-day period, this
    decision will become final. For your information we are attaching a copy of the applicable
                                                                          Page 3
regulations. If you have any questions about the foregoing, please call
                  at (703) 292-8060.



                                              .     ,   Sincerely,



                                                        Kathie L. Olsen
                                                        Deputy Director

Enclosures
-  Investigative Report
- 45 C.F.R. Part 689
         National Science
            Foundation
    Office of Inspector General




                   Confidential
              Report of Investigation
             Case Number A05070051

                         3 November 2006
CONFIDENTIAL

NSF OIG FORM228 (1103)
                              Executive Surnmarv
Allegation:    Plagiarism; a n NSF proposal contains text copied from a published
               paper.


OIG Inquiry: A proposal submitted to NSF by a PI and two co-PIS contains text
             and references copied from two sources.
University
Investigation
and Action: The University concluded a preponderance of evidence proved one
              of the co-PIS knowingly plagiarized. Co-PI admits copying.
               The co-PI tendered her resignation, effective June 2007.
               For the duration of her time a t the university, the co-PI is
               prohibited from submitting proposals for external funding.
OIG
Assessment:    We concur with the University.
               The Act: The subject copied verbatim text, totaling 69 lines and 15
               references from 2 sources, without quotation marks or appropriate
               citation into her proposal. The subject admitted to using the source
               documents and submitting the copied text to her colleagues a s her
               contribution to the proposal.
               Intent: The subject admitted to copying. OIG concurs with the
               University that the subject knowingly copied.
               Standard of Proof: The University and OIG used a preponderance
               of the evidence to reach its conclusions.
               Significant Departure: The subject's copying represents a
               significant departure from community standards.
               Pattern: None.


OIG
Recommends: Make a finding of research misconduct
               Send a letter of reprimand
               Require 1 year certification, beginning June 2007.
                                           OIG Inquiry
     In assessing a n allegation of plagiarism, the subject proposal1 was r u n through
plagiarism software, which helped us identify approximately 69 lines of verbatim
text and 15 references copied from 2 sources. The proposal had a PI (SubjectA) and
two co-PIS (SubjectB and SubjectC). We opened this case to investigate the
possibility the subjects plagiarized.
     We contacted each subject for a n explanation.2 SubjectA and SubjectC jointly
responded that SubjectB was responsible for the copied text.3 I n her response,4
SubjectB took responsibility for the existence of the copied text in the proposal, but
offered several explanations. SubjectB stated she used the copied text to "jump-
start discussions with F e r ] co-PIS," but she never intended "the text from this
initial document be used i n the final proposal."s She also claimed t h a t some of the
material was assembled by a student, but she did not provide any proof to support
this claim. SubjectB's explanations did not refute the allegation; therefore, we
referred the allegation to the University for investigation.6
                                   The University's Actions
     The University7 asked its standing Committee to investigate the allegation.8
The Committee interviewed all three subjects and collected documentation of the
subjects' communications during the preparation of the proposal. I t examined five
of each subject's papers for evidence of a pattern of plagiarism. It also examined
other proposals on which SubjectB was involved. The Committee wrote a report
summarizing its investigation and findings for each subject.9
       The Committee concluded a preponderance of evidence proved SubjectB alone
was responsible for the copied text. By herown admission, SubjectB used material
from the source documents to prepare her contribution to the proposal without
proper attribution.10 The Committee also found the plagiarized text appeared i n
files SubjectB emailed to her co-PIs.11 The Committee concluded her plagiarism
was a significant departure from the accepted practices of the research community
a s it violated the University's and NSF's policies.12 The Committee also concluded
the plagiarism was committed knowingly because she reorganized the text from the

      1 (redacted). The PI is (redacted) subject^), and the co-PIS are (redacted) ( ~ u b j e c t and
                                                                                                  ~)
(redacted) (SubjectC), all a t (redacted). The proposal a n d its source documents are Appendix (A).
      2 The letters to the three subjects were the same, a n example of which is Appendix (b).
      3 Their response is Appendix (C).
      4 SubjectB's response is Appendix (D).
      5 Appendix (D), p. 1.
      6 Our referral letter is Appendix (E).
      7 (redacted).
      8 The Vice Chancellor, Administration and Finance worked with t h e Standing Committee on
Conduct i n Science to conduct the investigation.
      9 The Committee's report for SubjectB, Case 06-01, is Attachment (F)
      10 Appendix (D)
      11 Appendix (F), report pp. 5-6.
      12 Ibid.,p. 5 .




                                                                                                   Pg. 2
source documents, she represented the material a s hers, and she read and approved
the proposal before its submission.13
     The Committee found no evidence to support any of SubjectB's purported
explanations. Specifically, the Committee found no evidence SubjectB intended the
copied text to be "motivational material" or that she never intended for the copied
text to remain in the final proposal.14 The Committee reviewed other proposals and
publications authored by SubjectB, but did not find any evidence of a pattern of
plagiarism. 15
    The Committee recommended SubjectB receive a letter of reprimand and, for a
2-year period, a n appointee of the Chancellor conduct a special review of SubjectB's
proposals and reports related to proposals. The University's adjudicator (the
Chancel1or)lG reviewed the Committee's report and met with SubjectB. SubjectB
subsequently tendered her resignation, effective June 2007, which the Chancellor
accepted. The Chancellor prohibited SubjectB from submitting any proposals for
external funding during the remainder of her time a t the University.17
                                      OIG's Assessment
     We accept the University's report a s accurate and complete, and we conclude
the University followed reasonable procedures in its investigation. We found the
Committee was thorough i n gathering and assessing the available evidence. We
concur with the University's finding of plagiarism against SubjectB and its
assessment of intent.


     We concur with the University Committee that the subject copied verbatim
text, totaling 69 lines and 15 references from 2 sources, without quotation marks or
appropriate citation into her proposal. The subject admitted to using the source
documents and submitting the copied text to her colleagues as her contribution to
the proposal.


     As noted above, the University determined, by a preponderance of evidence,
the subject copied knowingly. As described i n the report, SubjectB sought out the
source articles to use for her proposal, reorganized the text to fit the proposal
sections, and passed off the writing a s her own to her colleagues. We concur with
the University's assessment of the subject's intent.




     13 Ibid,, pp. 5-6.
     14 Ibid., pp. 6-7.
     15 Ibid., p. 7.
     16 (redacted).
     17 The Chancellor's decision is Appendix (G).




                                                                                 Pg. 3
     In summary, we concur with the University a preponderance of the evidence
shows SubjectB acted knowingly when she copied text from two sources into her
proposal without indicating the text was not her original words. The University
concluded her copying was not an acceptable scientific practice. We conclude her
act of copying 69 lines of verbatim text also represents a significant departure from
accepted practices. Our conclusion is supported by the University report and
statements articulated by the Association for Computing Machinery:
       Respecting intellectual property rights is a foundational principle of
       the ACM's Codes of Ethics. Plagiarism, in which oni misrepresents
       ideas, words, computer codes or other creative expression as one's own,
       is a clear violation of such ethical principles. Plagiarism can also
       represent a violation of copyright law, punishable by statute.
       Plagiarism manifests itself in a variety of forms, including
              Verbatim copying, near-verbatim copying, or purposely
              paraphrasing portions of another author's paper;
              Copying elements of another author's paper, such as equations
              or illustrations that are not common knowledge, or copying or
              purposely paraphrasing sentences without citing the source; and
              Verbatim copying of portions of another author's paper with
              citing but not clearly differentiating what text has been copied
              (e.g., not applying quotation). l8
Since the preponderance of the evidence shows that the subject knowingly copied
text, and in doing so significantly departed from accepted practices, we conclude the
subject's action is plagiarism and constitutes research misconduct.
                           OIG's Recommended Disposition
     In deciding what actions are appropriate when making a finding of research
misconduct, NSF must consider several factors. These factors include how serious
the misconduct was; whether it was an isolated event or part of a pattern; its
impact on the research record; and other relevant circumstances.
     SubjectB copied 69 lines of text from 2 sources, which is a significant amount.
There was no evidence of a pattern of plagiarism. The plagiarism occurred within a
declined proposal, so there was no harm to the research record. As noted earlier,
SubjectB accepted responsibility for the copied text, but provided explanations,
which the Committee rejected.
     Therefore, we recommend NSF send a letter of reprimand to the subject
informing her she has been found to have committed plagiarism, hence research
misconduct.19 The University has barred SubjectB from submitting proposals for

       Statements on plagiarism of the Association for Computing Machinery (the "First Society in
Computingv) http://www.acm.org/pubs/plagiarism%20policy.html.
    19 This is a Group I action; 45 CFR § 689.3(a)(l)(i).




                                                                                             Pg. 4
one year. Therefore, we recommend NSF require for 1year beginning June 2007, a
certification from SubjectB that all her submissions to NSF (including those in
which she is co-PI or co-author) contain nothing that violates NSFs Research
Misconduct regulation.20
                                       Subi ect's Response
    The subject declined to comment on our draft report of investigation.
Accordingly, we are forwarding our report to NSFs Deputy Director without
substantive changes.




    20   This is similar to a Group I action; 45 CFR § ,689.3 (a)(l)


                                                                            Pg. 5
